  CORPORATION FOR PUBLIC
      BROADCASTING



     SEMIANNUAL REPORT

 OFFICE OF INSPECTOR GENERAL
         OPERATIONS

CPB AUDIT RESOLUTION ACTIVITIES




    October 1, 2012 to March 31, 2013
Inspector General’s Semiannual Report                      Corporation for Public Broadcasting



                                        FOREWORD

Congress created the Corporation for Public Broadcasting (CPB) in 1967 as a private
nonprofit corporation chartered in the District of Columbia to promote noncommercial
public telecommunications. In authorizing CPB, Congress made it clear that
noncommercial television and radio in America, even though supported by Federal
funds, must be absolutely free from any Federal Government interference beyond the
mandate in the legislation. A nine-member Board of Directors (the Board) was
established to govern CPB, set policy, and establish programming priorities. The Board
is expected to have broad representation from throughout the country. Board members
are selected from among citizens of the United States who are eminent in fields such as
education, cultural and civic affairs, or the arts, including television and radio. Each
member is appointed by the President and confirmed by the Senate for a six-year term.

CPB is the largest single source of Federal funding for public television and radio
programming. It provides financial support and a variety of services to more than 1,000
public television and radio stations nationwide. CPB support ensures that stations can
exchange program materials through a national interconnection system. In addition,
CPB initiatives seek ways to help public television and radio stations serve their
communities more efficiently and effectively. These initiatives make possible diverse
and innovative programs that are educational and locally relevant. CPB also gives
grants to organizations and to individual producers for the production or acquisition of
new programs for public television and radio. These activities help provide universal
access to the public broadcasting system.

CPB receives nearly all of its funding from Congress. Funds are appropriated two years
before the fiscal year they are to be spent. This advanced funding provides stability for
the planning and funding of long-term programs and projects. CPB’s total Federal
appropriations for Fiscal Year (FY) 2013 were approximately $437 million. This
includes $421.9 million for the general Federal appropriation after consideration of the
0.2 percent rescission and the 5.0 percent reduction resulting from sequestration. CPB
must spend at least 95 percent of its general Federal appropriation on grants/contracts
to television and radio stations, producers of programs, and educational services, as
well as, for general system support. The balance of the general Federal appropriation,
up to five percent, may be expended for internal CPB operations. Additionally, CPB
received a $14.7 million U.S. Department of Education Ready To Learn grant.

In 1988, Congress enacted amendments to the Inspector General Act (IG Act) requiring
that CPB, as one of a number of designated Federal entities, have an Office of
Inspector General (OIG). In this regard, CPB’s OIG is an independent component of
the organization, reporting to the Board through its Audit and Finance Committee. In
addition to reporting to the Board, the IG Act requires that the Inspector General and the
head of the CPB each report semiannually to Congress and the public regarding OIG
operations and activities. Since CPB is a small organization, we have combined these
separate reporting requirements into one joint report. The OIG’s report section is titled

October 1, 2012 to March 31, 2013                                                     i
Inspector General’s Semiannual Report                               Corporation for Public Broadcasting


“Office of Inspector General Operations” (page 1) and CPB’s report section is titled
“CPB Audit Resolution Activities” (page 16).

The IG Act reporting requirements are listed below, along with a page reference where
more detailed information is provided.

                       Index of IG Act Reporting Requirements

      IG Act
   Reference                           OIG Reporting Requirements                         Page
 Section 4(a)(2)    Review of Legislation and Regulations                                 None
 Section 5(a)(1)    Significant Problems, Abuses, and Deficiencies                         4
 Section 5(a)(2)    Recommendations With Respect to Significant Problems,
                    Abuses, and Deficiencies                                               4
 Section 5(a)(3)    Prior Significant Recommendations Not Yet Completed                    9
 Section 5(a)(4)    Matters Referred to Prosecutive Authorities                           None
 Section 5(a)(5)    Summary of Instances Where Information Was Refused or Not
                    Provided                                                              None
 Section 5(a)(6)    List of Audit and Inspection Reports Issued                            2
 Section 5(a)(7)    Summary of Each Significant Report                                     4
 Section 5(a)(8)b   Statistical Table Showing the Number of Audit Reports and Dollar
                    Value of Questioned Costs                                               2
 Section 5(a)(9)    Statistical Table Showing the Number of Audit Reports and Dollar
                    Value of Recommendations that Funds Be Put To Better Use                2
 Section 5(a)(10)   Summary of Audit Reports Issued Before the Start of the
                    Reporting Period for Which No Management Decision Has Been
                    Made by the End of the Reporting Period                               12
Section 5(a)(11)    Description and Explanation of Reasons for any Significant
                    Revised Decisions by Management During the Reporting Period           None
 Section 5(a)(12)   Information Concerning Significant Decisions by Management
                    With Which the Inspector General is in Disagreement                   None
 Section 5(a)(14)   Information Regarding Peer Reviews Involving the
                    Office of Inspector General                                            13

                               CPB Management Reporting Requirements
 Section 5(b)(2)    Statistical Table Showing the Total Number of Audit Reports and
                    Results From Disallowed Costs                                          17
 Section 5(b)(3)    Statistical Table Showing the Total Number of Audit Reports and
                    Results From Recommendations that Funds Be Put To Better
                    Use Agreed to in a Management Decision                                 18
 Section 5(b)(4)    Summary of Audit Reports Where Final Action Has Not Been
                    Completed Within One Year of a Management Decision                     19




October 1, 2012 to March 31, 2013                                                               ii
                    TABLE OF CONTENTS



FOREWORD                                                   i


OFFICE OF INSPECTOR GENERAL OPERATIONS                    1

     MESSAGE FROM THE INSPECTOR GENERAL                   1

     OIG OPERATIONS IN THE CURRENT PERIOD                 2

     AUDIT & ASSISTANCE ACTIVITIES                        4

     INVESTIGATIVE ACTIVITIES                             14

     OIG STAFFING & ORGANIZATION CHART                    15



CPB AUDIT RESOLUTION ACTIVITIES                           16

     MESSAGE FROM CHIEF FINANCIAL OFFICER AND TREASURER   16

     RECOVERING DISALLOWED COSTS                          17

     RECOVERING FUNDS PUT TO BETTER USE                   18

     CORRECTIVE ACTIONS NOT COMPLETED WITHIN
     ONE YEAR OF A MANAGEMENT DECISION                    19
Inspector General’s Semiannual Report                                      Corporation for Public Broadcasting



OIG Operations in the Current Period
The following table presents our accomplishments during this six month semiannual
reporting period.

                Reports Issued for the Period Ending September 30, 2012

                                                                                                    Funds Put
 Report Number
                                     Report Title                      Questioned Unsupported       To Better
  Date Issued
                                                                         Costs       Costs            Use
Audits:

                    Examination of CPB Grants Awarded to
  AST1206-1301      Northwest Indiana Public Broadcasting, Inc., for
                                                                                $0             $0            $0
 February 4, 2013   the Periods Ending September 30, 2010 and
                    2011

Evaluations:

  EPF1204-1302      Evaluation of CPB Procurement Awards for the
                                                                                $0             $0            $0
  March 29, 2013    Period October 1, 2009-April 1, 2012

  ECO1208-1303      Evaluation of Open Grants/Contracts with
                                                                                $0             $0            $0
  March 29, 2013    Expiration Dates of June 30, 2011 or Earlier


The IG Act, as amended, establishes the reporting requirements and terminology used
in this report. To facilitate the reader’s understanding of the reporting terminology, we
offer the following definitions.

The term “questioned cost” means a cost is questioned by the auditor as an alleged
violation of a law, contract, grant, or other agreement governing the expenditure of
funds. A cost can also be questioned when it is not supported by adequate
documentation. This type of “questioned cost” is also known as “unsupported cost.”

The term “funds put to better use” means funds could be used more efficiently, e.g.,
reducing future outlays, de-obligating funds from a contract or grant, or taking other
recommended corrective actions.

The term “management decision” means a decision made by CPB management after
evaluating the findings and recommendations contained in the audit report. The
findings and recommendations can be either monetary or non-monetary in nature. In
the case of a monetary “questioned cost” finding, the “management decision” will either
disallow or allow the questioned cost. When recommended questioned costs are
sustained by management’s decision, these are reported as “disallowed costs” in the
Semiannual Report to Congress.

The term “final action” means that all the corrective actions identified in the
“management decision” have been completed. In the case of questioned costs, it
means that all questioned costs sustained in the “management decision” have been


October 1, 2012 to March 31, 2013                                                                        2
Inspector General’s Semiannual Report                  Corporation for Public Broadcasting


refunded to CPB. Similarly, in the case of non-monetary findings, all recommended
corrective actions have been implemented by CPB, a contractor, or grantee and have
been accepted as complete by CPB management.




October 1, 2012 to March 31, 2013                                                    3
Inspector General’s Semiannual Report                         Corporation for Public Broadcasting



Audit & Assistance Activities
                               Significant Reports Issued
Examination of CPB Grants Awarded to Northwest Indiana Public Broadcasting
Inc., for Periods Ending September 30, 2010 and 2011, Report No. AST1206-1301,
Issued February 4, 2013

The objectives of the examination were to determine whether the licensee: a) claimed
Non-Federal Financial Support (NFFS) on its Annual Financial Reports (AFRs) for FYs
2010 and 2011 in accordance with CPB Financial Reporting Guidelines; b) complied
with the Certification of Eligibility requirements and the statutory provisions of the
Communications Act of 1934, as amended; and c) expended CSG, and other grant
funds in accordance with CPB grant requirements.

Based upon our examination we found noncompliance with the following statutory
provisions of the Communications Act and CPB grant requirements:

   •   open meeting requirements to provide quarterly on-air announcements of the
       station’s open public meetings policies;
   •   open financial records requirements to make the CPB Annual Financial Report
       and CPB grant financial reports available to the public;
   •   to develop documentation indicating the manner the station will comply with the
       five statutory requirements of the Communications Act; and
   •   the Independent Public Accountant’s attestation of the AFR’s compliance with
       CPB’s NFFS reporting requirements.

  Recommendations

We recommended that CPB require the licensee to fully comply with all requirements of
the Act and provide CPB with documentation of its compliance as follows:

   •   make quarterly on-air announcements of the station’s open meeting policy and
       maintain documentation of the station’s on-air announcements;
   •   develop controls that ensure that financial records provided to the public include
       any agreements with CPB that require a financial report; and
   •   establish written implementing policies of the station’s practices for all of the
       Communications Act requirements.

We also recommended that CPB require the licensee to ensure its IPA conducts an
attestation examination of its AFR in accordance with CPB Financial Reporting
Guidelines.

In response to the draft report, licensee officials agreed with our findings on the
Communications Act and the IPA’s attestation on NFFS compliance. They also have
initiated corrective actions as they outlined in their written response to the draft report.


October 1, 2012 to March 31, 2013                                                           4
Inspector General’s Semiannual Report                     Corporation for Public Broadcasting


   CPB Response

CPB’s management decision resolving our recommendations is due by August 3, 2013.


Evaluation of CPB Procurement Awards for the Period October 1, 2009 - April 1,
2012, Report No. EPF1204-1302, Issued March 29, 2013

The objectives of our review were to determine whether CPB: 1) procured goods and
services in accordance with the CPB Procurement Policy, CPB Contracts Policy, and
the Project Officer Handbook; 2) obtained goods and services (including productions)
from the highest quality contractor or grantee at the most economical cost or price; and
3) utilized digital funds in accordance with the requirements specified in the
appropriation. We initiated this evaluation to address an allegation of favoritism in
awarding grants and contracts based on an anonymous complaint.

Our evaluation of 19 contracts and 8 grants from the 745 contracts and discretionary
grants awarded competitively or sole source during the period of our review found the
following:

   •   10 of 13 sole source justifications did not adequately document that the
       contractors selected were the only contractors “practicably” available or that an
       emergency existed;
   •   3 of 4 production grant awards were not reviewed by an outside panel as
       specified by the Public Broadcasting Act;
   •   4 of 4 grants for non-production services were not required to be reviewed by an
       outside panel;
   •   6 of 6 competitive contract procurements provided assurance that contracts were
       awarded to qualified providers for a reasonable cost; and
   •   no evidence that digital funds were not used in accordance with the appropriation
       requirements.

Additionally, we observed that procurements recorded in CPB’s Grants Information and
Financial Tracking System (GIFTS) did not accurately describe agreements as either a
contract or grant, or whether the agreement was competed or was sole source. Such
classifications would assist in determining what procurement guidelines to follow in
approving the contract or grant, as well as provide full accountability over procurement
activities for planning and management oversight purposes.

Overall we concluded that CPB needs to adhere more closely to its procurement
policies and procedures when awarding sole source contracts, as well as more
consistently comply with the Public Broadcasting Act requirements when awarding
national programming grants. Based on our evaluation we could not substantiate the
allegations of favoritism in awarding contracts and grants from the documented records.
To avoid any appearance of favoritism in awarding contracts and grants CPB should
ensure that sole source justifications appropriately justify the reasons contractors are



October 1, 2012 to March 31, 2013                                                       5
Inspector General’s Semiannual Report                       Corporation for Public Broadcasting


considered the only practicable option or that emergencies exist. Further, national
programming proposals should be reviewed by an outside panel, as specified by the
statute.

   Recommendations

We recommended that CPB revise its policies and procedures to improve the
documentation of solicitation and award decisions by:

   •   requiring project officers to improve justifications for contractors and grantees
       that are considered the only practicable option;
   •   revising the procurement policy to emphasis that emergencies must be
       unforeseen and that non emergency projects should not be combined with
       projects being awarded because of an emergency;
   •   revising guidance to project officers to require them to complete questions on
       concurrence forms related to procurement method, why grantee was selected,
       results of the panel review, and why the proposed costs were considered
       reasonable;
   •   requiring that, to the extent practical, external review panels are used to evaluate
       proposals prior to awarding grants for national programming, including when
       panels are not used, the reasons for not doing so should be documented; and
   •   ensuring CPB contract and grant files document proposal evaluation sheets,
       including any weighting factors used in the evaluation.

We also recommended that CPB revise its policies and procedures to improve
recording of contract and grant awards in GIFTS by:

   •   identifying awards as a grant or a contract rather than classifying both grants and
       contracts as contracts;
   •   revise the CPB Concurrence Form to require project officers to specify the type
       of award (competitive or sole source) for all grants, including those with media
       content; and
   •   ensure GIFTS accurately describes procurements as grants or contracts (sole
       source or competitive) to provide accountability over all procurement activities
       and permit oversight of sole source contracting activities.

In response to the draft report, CPB management generally concurred with the findings
and recommendations with respect to improved documentation of procurement
decisions, particularly in cases of sole source or emergency determinations. Although
they agreed that sole source procurements could have been better documented for
some of the procurements highlighted in the report, management also believes that their
decisions were justified and appropriate under CPB policy. They stated that their award




October 1, 2012 to March 31, 2013                                                         6
Inspector General’s Semiannual Report                      Corporation for Public Broadcasting


decisions provided good value to CPB and represented a reasonable exercise of
business discretion. CPB management also believes that content-related grant award
decisions, which management stated were not subject to the procurement policy and its
RFP process, could have been documented better to record their decision that an
outside panel review was not practicable.

    CPB Response

CPB’s management decision resolving our recommendations is due by September 25,
2013.


Evaluation of Open Grants/Contracts with Expiration Dates of June 30, 2011 or
Earlier, Report No. ECO1208-1303, Issued March 29, 2013

The objectives of our evaluation were to verify: 1) funds available to deobligate; 2)
actions taken by project officers to close-out grants/contracts; and 3) compliance with
CPB Contract Close-out Procedures, Deobligation Policy, and the Project Officer
Handbook.

Overall our evaluation found:

•   Actions taken by the CPB over the last year reduced the number of open
    grants/contracts with ending dates of June 30, 2011 or earlier from 47
    grants/contracts with $6,434,658 in accounts payable to 4 grants/contracts with
    $159,548 in accounts payable; and
•   Project officers and departmental managers have not adequately focused on closing
    out expired grants/contracts in accordance with established procedures, policies and
    guidelines.

Additionally, our sample of 9 grants/contracts found:
.
• 9 grants/contracts final deliverables were not submitted to CPB within the grant
  agreement timeframes (generally 45 days following the expiration of the grant
  period);
• 8 grants/contacts have now been closed out, the remaining open grant should be
  amended to extend the grant period;
• 6 of the 8 grants/contracts closed out did not use the Closeout Checklist established
  by the Contract Closeout Procedures dated December 2010; and
• 1 of the 5 grants/contracts subject to deobligation did not adequately document the
  decision not to deobligate CPB’s proportionate share of unused funds in accordance
  with CPB’s Deobligation Policy dated January 30, 2008.

Recommendations

We recommended that CPB management take actions to:



October 1, 2012 to March 31, 2013                                                        7
Inspector General’s Semiannual Report                      Corporation for Public Broadcasting


•   ensure project officers close-out grants/contracts on a timely basis in accordance
    with established CPB procedures, policies, and guidelines;
•   establish a performance objective in departmental manager’s and project officer’s
    job performance elements to manage grants/contracts in accordance with
    established practices; and
•   provide training to departmental managers and project officers on grant/contract
    management procedures, policies, and guidelines.

We also recommended that CPB reconsider a previous decision not to develop a
common grant/contract project management system to be used by all departments and
project officers to facilitate executive oversight across CPB departments.

In response to the draft report, CPB management generally concurred with the findings
and recommendations with respect to project officer oversight of grants and contracts.
Further, management stated they will take under advisement the establishment of
formal project officer performance objectives and continue to provide training to
department managers and project officers. Further, they stated they would continue to
work on the creation of a new project management system within the financial
constraints of reduced operating funds.

    CPB Response

CPB’s management decision resolving our recommendations is due by September 25,
2013.




October 1, 2012 to March 31, 2013                                                        8
Inspector General’s Semiannual Report                      Corporation for Public Broadcasting


                     Other Special Requests and Assignments
Follow-up Reporting on CPB’s Corrective Actions Related to Report No. EPB503-
602, dated November 15, 2005, Review of Alleged Actions Violating The Public
Broadcasting Act of 1967, as Amended

In response to this report, the Board of Directors and CPB management initiated Project
Champion in December 2005 to examine and strengthen policies and procedures in
four major areas of CPB’s operations (procurement, contracting, human resources, and
payment processing). With this report CPB has now resolved and closed all 28
recommendations presented in the audit report.

During this semiannual period CPB officials revisited its planned actions to address the
open recommendation to revise the Board of Director’s Code of Ethics to include
disciplining Board members for violating the Code of Ethics through statutory changes.
Upon further review of the changes made to the Board’s Code of Ethics and the
establishment of the Corporate Governance Committee, these mechanisms have
worked effectively over the last six years and provide the Board with sufficient oversight
tools to discipline corporate activities, as well as, itself to warrant closing this
recommendation.

In April 2011, the CPB Board of Directors revised the Charter for the CPB Office of the
Ombudsman to require the ombudsman to prepare annually a written review of CPB-
funded programming to evaluate its objectivity, balance, fairness, accuracy and
transparency. CPB hired a new ombudsman in June of 2011. The Board’s actions
resolved this recommendation and when the ombudsman issued his first report on
objectivity and balance in January 2013 his actions closed this recommendation.




October 1, 2012 to March 31, 2013                                                        9
Inspector General’s Semiannual Report                       Corporation for Public Broadcasting


                            Other Assignments in Process
The Office of Inspector General has three audits in process. They include a radio station
audit, a television production audit, and a radio production audit. We plan to initiate at
least two additional audits before the end of the fiscal year.

The objectives of the radio audit are to determine compliance with: 1) Non-Federal
Financial Support reporting requirements; 2) Certification of Eligibility requirements; 3)
Communications Act requirements; and 4) allowable expenditures requirements. The
objectives of the two production grant audits are to determine: 1) the accuracy of
revenue and expenditure reporting; 2) whether costs were incurred for allowable
activities; and 3) compliance with grant requirements.




October 1, 2012 to March 31, 2013                                                         10
 Inspector General’s Semiannual Report                              Corporation for Public Broadcasting


                               Resolution of Recommendations
 The following table summarizes the resolution activities for all audit and assistance
 reports issued by our office. This table includes reports that contain monetary and non-
 monetary findings with related recommendations.

                                     Reports Requiring Resolution


                                          Number of                         Total
                                           Reports     Questioned        Unsupported         Funds Put to
             Description                                 Costs              Costs             Better Use
Reports for which no management
decision had been made by the start of
the reporting period.                         8              $702,973           $286,898           $623,885
Reports issued during the reporting
period.                                       3                     $0                 $0                $0

                Subtotals                    11              $702,973           $286,898           $623,885
Reports for which a management
decision had been made during
the reporting period:                         5
   •    Dollar value of recommendations
        agreed to by management                              $398,299               $1,138         $224,612
   •    Dollar value of recommendations
        not agreed to by management                           $18,914                  $0          $128,020
Reports with no management decision at
the end of the reporting period.              6              $285,760           $285,760        $275,519**


 ** This column does not foot because CPB’s final management decision resolving one audit report
 disallowed an additional $4,266 more than reported in the audit report.




 October 1, 2012 to March 31, 2013                                                                  11
Inspector General’s Semiannual Report                      Corporation for Public Broadcasting


    Summary of Reports Issued Before September 30, 2012 with no
             Management Decision by March 31, 2013
During this reporting period there were three audit reports that were not resolved within
the six month audit resolution timeframe. All three were subsequently resolved during
the first week of April 2013.

Examination of Selected CPB Grants Awarded to Radio Bilingüe, Inc., for the
Period October 1, 2008 – November 30, 2010, Audit Report No. ASR1103-1203,
Issued March 30, 2012

Our examination found questionable costs of $285,760 for the lack of adequate
supporting documentation. Additionally, we found that $7,823 claimed as in-kind
contributions for satellite services were not adequately supported. The grantee also
improperly claimed NFFS revenues of $28,150 received from public broadcasting
entities. This resulted in CPB making $1,827 in excess CSG payments to Radio
Bilingüe during FY 2011. We classified this amount as funds put to better use for
reporting purposes, because these funds could have been distributed to other public
broadcasting entities.

Additionally, we found that grantee was not compliant with the statutory provisions of
the Communications Act or the CPB Certification of Eligibility requirements.

CPB management issued a management decision resolving the findings in this
report on April 4, 2013.

Examination of City Colleges of Chicago, WYCC-TV for Fiscal Years 2010-
2011, Audit Report No. AST1205-1209, Issued September 27, 2012

Our examination found that WYCC-TV overstated NFFS by $2,382,835, resulting in
CPB making overpayments of $273,692 to WYCC-TV. Additionally, we found that
WYCC-TV did not fully comply with all requirements of the Communications Act.

CPB management issued a management decision resolving the findings in this
report on April 2, 2013.

Report of Evaluation – Complaint Against KVNF-FM, Report No. ESR1207-
1207, Issued on September 10, 2012

Our evaluation found that the grantee did not maintain discrete accounting over CPB
Community Service Grant funds.

CPB management issued a management decision resolving the finding in this report
on April 4, 2013.




October 1, 2012 to March 31, 2013                                                        12
Inspector General’s Semiannual Report                   Corporation for Public Broadcasting


                                        Peer Review
CPB OIG Peer Review

The Pension Benefit Guaranty Corporation, Office of Inspector General, last conducted
a peer review of CPB’s OIG, Office of Audit’s system of quality control for the period
ending March 31, 2010. Their report, dated February 15, 2011, concluded that our
system of quality control has been suitably designed and complied with, to provide
reasonable assurance of complying with professional auditing standards. There were
no recommendations made in the peer review report or any carryover recommendations
from prior peer reviews. The peer review report is available on our website at
http://www/cpb.org/oig/reports/OIGPeerReview.pdf.

We are scheduled to have our next peer review in the coming months.




October 1, 2012 to March 31, 2013                                                     13
Inspector General’s Semiannual Report                       Corporation for Public Broadcasting



Investigative Activities
The Inspector General Act provides for the OIG to receive and investigate complaints or
allegations involving potential violations of law; rules or regulations; mismanagement;
gross waste of funds; or abuse of authority. Because we do not employ criminal
investigators, when we receive an allegation of a criminal violation, we either refer it to
the Federal Bureau of Investigation or other appropriate law enforcement agencies, or
contract with another OIG for assistance. The results of such investigations may be
referred to appropriate federal, state, or local prosecuting authorities for action.


                        Allegations and Hotline Complaints
In the previous semiannual report, we reported that we had six open complaints. These
involved various allegations that public television and radio stations did not comply with
the Communications Act requirements (e.g. open financial records, Community
Advisory Boards and donor lists(s) as well as other allegations of mismanagement or
abuse of CPB funds. In December 2012, we added one additional matter as a Hotline
complaint which had initially been received in July.

Six of the seven complaints open from the previous reporting period were closed during
the current period. In three of the complaints, the allegations were not proven; in one
the complainant was unable to provide sufficient usable evidence to support the
allegations; in one there was no CPB jurisdiction; and in one, OIG and CPB were
unable to identify information that would be relevant to the sentencing of a former
station manager who had entered a guilty plea. We have kept one complaint open in
order to provide other law enforcement agencies with information, but OIG is not
actively investigating or auditing the allegations.

During this reporting period, we received 23 complaints. Fifteen were closed after
preliminary review because there was no CPB jurisdiction, because the complaint
lacked specificity, or because the complainant was unable to provide evidence. One
complaint was closed by referral for possible audit. For the seven remaining
complaints, we are seeking additional information from CPB, outside sources or are
otherwise reviewing the allegations presented.

At the end of this reporting period, eight complaints remain open.


                                        Investigations

One active case remains in process at the end of this reporting period.




October 1, 2012 to March 31, 2013                                                         14
Inspector General’s Semiannual Report                    Corporation for Public Broadcasting



OIG Staffing & Organization Chart

The fiscal year 2013 budget approved by CPB’s Board of Directors included 9.5 full-
time equivalent positions.

The following chart reflects the current organization.




October 1, 2012 to March 31, 2013                                                      15
[This page is intentionally left blank]
Inspector General’s Semiannual Report                                   Corporation for Public Broadcasting



Recovering Disallowed Costs
During this reporting period CPB management issued five management decisions
that contained findings with questioned costs. Further details concerning the status
of on-going recovery efforts are discussed under Corrective Action Not Completed
Within One Year of a Management Decision, on page 19.

                                 Reports with Disallowed Costs

                                                                     Number of       Dollar Value of
                           Description                                Reports       Disallowed Costs
  Reports with management decisions for which final action had
  not been completed by the start of the reporting period.              7                       $603,659
  Reports for which management decisions were made during the
  reporting period.                                                     2                       $398,299

  Subtotal                                                              9                     $1,001,958
  Reports for which final action was taken during the reporting
  period.                                                               6
     •    Dollar value of disallowed costs that have been
          recovered through collection or offset.                                               $415,186
     •    Dollar value of disallowed costs written off as
          uncollectible.                                                                        $177,170
  Reports for which final actions were not completed by the end of
  the reporting period.                                                 3                       $409,602




October 1, 2012 to March 31, 2013                                                                     17
Inspector General’s Semiannual Report                                      Corporation for Public Broadcasting



Recovering Funds Put to Better Use
For reports with recommendations that funds be put to better use, there were five
management decisions during the period. Further details on the status of on-going
recovery efforts are discussed under Corrective Action Not Completed Within
One Year of a Management Decision, on page 19.

                             Reports with Funds Put to Better Use

                                                                   Number of         Dollar Value of
                           Description                              Reports         Recommendations
   Reports with management decisions for which final action
   had not been completed by the start of the reporting period.       6                          $1,976,742
   Reports for which management decisions were made during
   the reporting period.                                              4                           $224,612

   Subtotal                                                           10                         $2,201,354
   Reports for which final action was taken during the reporting
   period.                                                            5
      •    Dollar value of funds put to better use that was
           actually completed.                                                                   $1,135,849
      •    Dollar value of funds put to better use that
           management concluded should not or could not be
           completed.                                                                               $9,767
   Reports for which final actions had not been completed by
   the end of the reporting period.                                   5                          $1,055,738




October 1, 2012 to March 31, 2013                                                                        18
Inspector General’s Semiannual Report                            Corporation for Public Broadcasting



Corrective Actions Not Completed Within One Year of a
Management Decision
At the end of the reporting period there were two reports with monetary corrective
actions that had not been completed within one year of the management decision
date. Additionally, there are five other reports with significant administrative
corrective actions that have not been completed within one year of the management
decision date.

Monetary collection actions are in process in accordance with CPB’s approved grant
offset schedule for two audits.


     On-Going Monetary Collective Actions as of March 31, 2013
                                                                                  Fiscal Year
                                               Date             Date            Corrective Action
 Report No.          Report Title             Issued           Resolved         to be Completed


 ASJ802-805 Community Service Grants       Sept. 26, 2008    July 29, 2009         FY 2014 (1)
            Awarded to WGBH
            Educational Foundation

ASJ1102-1201 Audit of CPB Grants           Dec. 12, 2011      July 9, 2012         FY 2017 (2)
             Awarded to WQED
             Multimedia


    (1) CPB began recovering $1,339,477 from WGBH during FY 2010. They will deduct $267,895
        from WGBH’s annual CSG for five years.

    (2) CPB will begin recovering $759,332 in FY 2013. They will deduct $151,867 from WQED’s
        annual CSG for five years.




October 1, 2012 to March 31, 2013                                                              19
Inspector General’s Semiannual Report                         Corporation for Public Broadcasting


      Significant Unimplemented Administrative Corrective Actions
                         as of March 31, 2013

                                                                               Fiscal Year
                                            Date            Date             Corrective Action
Report No.          Report Title           Issued          Resolved          to be Completed


APR806-904 KBCS                         March 27, 2009   June 24, 2009          April 1, 2013


APT502-704 WETA                         March 30, 2007   June 25, 2010          April 1, 2013


AST702-802 WNET                         March 31, 2008   June 25, 2010          April 1, 2013


APT807-202 WGBH                         Feb. 17, 2009    June 25, 2010          April 1, 2013

ECJ905-1105 Station Survey Compliance   March 31, 2011   August 30, 2011      October 1, 2013
            with Accounting &
            Communications Act
            Requirements


The following reports contained unimplemented administrative corrective actions that
represent significant policy issues regarding claiming indirect costs and auditing
compliance with Communications Act requirements.

       KBCS, WETA, WNET and WGBH

These reports recommended that CPB establish a policy for claiming indirect costs
under CPB grant agreements. CPB undertook extensive discussions with national
public broadcasting producers in order to develop a consensus of opinion around
guidelines that would be fair and equitable to both producers and CPB. Discussions
between the parties have primarily focused on resolving differences when applying
indirect costs to acquisition and subcontracting costs. CPB is currently working on
resolving internal differences between CPB officials and the OIG officials. CPB expects
to complete this process and to implement its policy no later than April 30, 2013.

       Station Survey

This report recommended expanding the independent public accountant’s attestation
testing to verify compliance with the Communications Act requirements. To accomplish
this CPB is updating the Financial Reporting Guidelines and developing a
communications plan to notify all grantees of the new requirements. CPB expects these
new procedures will be implemented for the grantees’ FY 2013 audits, by October 1,
2013.




October 1, 2012 to March 31, 2013                                                           20
Corporation
for Public
Broadcasting


401 Ninth Street, NW
Washington, DC 20004
(202) 879-9600
www.cpb.org/oig
